HHS/OIG-Audit--"Review of the Internal Control Structure Over the Accounts Payable Balance for the Supplementary Medical Insurance Trust Fund at September 30, 1992, (A-04-92-02054)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Internal Control Structure Over the Accounts Payable Balance for the Supplementary Medical Insurance
Trust Fund at September 30, 1992," (A-04-92-02054)
June 30, 1994
Complete
Text of Report is available in PDF format (2.44 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our review of the internal control structure over the accounts payable
balance for the supplementary medical insurance trust fund at September 30, 1992. We identified problems with the design
and implementation of the Health Care Financing Administration's (HCFA) internal control structure and accounting policies
used to report supplementary medical insurance trust fund accounts payable balances. The HCFA's financial reporting instructions
to the carriers were too general causing accounts payable amounts to be calculated and reported inconsistently. Also, accounting
policy issues need to be addressed because certain benefit payment checks and contracted services were improperly included
in the accounts payable balance. Recommendations call for HCFA to take steps to ensure the accuracy and reliability of
accounts payable balances.